           MANAGEMENT AND USE OF DIRECTOR,
        OPERATIONAL TEST AND EVALUATION FUNDS


Report No. D-2000-150                   June 15, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DOT&E                 Director, Operational Test and Evaluation
CTEIP                 Central Test and Evaluation Investment Program
JTCG/AS               Joint Technical Coordinating Group on Aircraft Survivability
JTCG/ME               Joint Technical Coordinating Group on Munitions Effectiveness
MIPR                  Military Interdepartmental Purchase Request
WHS                   Washington Headquarters Service
                       Office of the Inspector General, DoD
Report No. D-2000-150                                                     June 15, 2000
  Project No. D2000AB-0100.00

         Management and Use of Director, Operational Test and
                         Evaluation Funds

                                Executive Summary

Introduction. In June 1999, the Secretary of Defense approved a reorganization of test
and evaluation functions within DoD. The reorganization disestablished the functions
of the Director, Test, Systems Engineering, and Evaluation, within the Office of Under
Secretary of Defense for Acquisition, Technology, and Logistics and transferred a wide
range of test and evaluation functions and resources, including the oversight of the test
ranges and facilities, test investment, and sponsorship of many test related programs to
the Office of the Director, Operational Test and Evaluation. The merger increased the
Director, Operational Test and Evaluation, budget from $34.2 million to
$217.9 million. The Director, Operational Test and Evaluation, requested an audit to
examine the use of the funds as well as the processes used to manage these funds. This
report addresses the request of the Director, Operational Test and Evaluation.

Objectives. Our overall audit objective was to evaluate the process used to distribute
the Director, Operational Test and Evaluation funds, and to evaluate whether the funds
were used for the appropriate purpose.

Results. We reviewed the accounting for $141.1 million or 64.8 percent of the
Director, Operational Test and Evaluation, funds distributed to various fund recipients.
Fund recipients used existing accounting guidelines and regulations to properly
distribute and account for the funds. As a result, the Director, Operational Test and
Evaluation, has reasonable assurance that procedures used to account for funds were in
accordance with administrative control policies and the funds were distributed to the
intended program.

Management Comments. We provided a draft of this report on May 17, 2000.
Although not required to comment, the Deputy Director, Resources and Ranges, Office
of the Director, Operational Test and Evaluation, suggested a minor change, which was
incorporated in this final report. The complete text of the management comments is in
the Management Comment section.
Table of Contents

Executive Summary                                                       i


Introduction
     Background                                                        1
     Objectives                                                        2
     Management and Use of Director, Operational Test and Evaluation
       Funds                                                            3

Appendixes
     A. Audit Process
          Scope and Methodology                                         8
          Summary of Prior Coverage                                     9
     B. Funds Oversight                                                10
     C. Report Distribution                                            11

Management Comments
     Deputy Director, Resources and Ranges Comments                    13
Background
In 1983, Congress created the Office of Director, Operational Test and Evaluation
(DOT&E), to provide independent assessments of operational test and evaluation
activities within DoD. The DOT&E ensures that operational tests and evaluations of
major DoD acquisition programs are adequate to confirm the operational combat
standards of defense systems. Additionally, Congress and the Secretary of Defense rely
on the DOT&E when making budgetary and financial decisions for major acquisition
programs.

In June 1999, the Secretary of Defense approved a reorganization of test and evaluation
functions within DoD. The reorganization disestablished the functions of the Director,
Test, Systems Engineering, and Evaluation, within the Office of Under Secretary of
Defense for Acquisition, Technology, and Logistics and transferred a wide range of test
and evaluation functions and resources, including the oversight of the test ranges and
facilities, test investment, and sponsorship of many test related programs to the Office
of the DOT&E. The reorganization placed the following test and evaluation functions
under the cognizance of DOT&E:

   •   Central Test and Evaluation Investment Program (CTEIP). Through
       congressional direction, CTEIP strengthens the ability of the Office of the
       Secretary of Defense to manage test and evaluation initiatives. The program
       applies a corporate approach to what would otherwise be Service-specific test
       and evaluation initiatives. CTEIP also works to allocate funds more efficiently
       among the Services and thereby allows DoD to achieve a higher degree of
       interoperability and interconnectivity between test centers, ranges, and areas of
       test and evaluation expertise.

   •   Joint Technical Coordinating Group on Munitions Effectiveness
       (JTCG/ME). The JTCG/ME mission is to develop and publish weapons
       effectiveness estimates for all nonnuclear weapons.

   •   Joint Technical Coordinating Group on Aircraft Survivability (JTCG/AS).
       The JTCG/AS mission is to ensure joint, coordinated development of
       survivability technology and methodology and to design tools necessary to
       provide the warfighter with survivable, combat-effective aeronautical systems.

   •   Threat Systems Office. The Threat Systems Office supports DOT&E for all
       DoD activities related to planning, programming, budgeting, management,
       acquisition, development, and validation of threat system representations used in
       test and evaluation and training.

   •   Precision Guided Weapon Countermeasure Test Directorate. The Precision
       Guided Weapon Countermeasure Test Directorate conducts developmental and
       operational tests on precision-guided, electro-optical, and millimeter wave-
       guided weapon systems. Its mission is to direct, coordinate, support, and
       conduct test and evaluation activities for all precision-guided weapon systems
       and related components.



                                            1
   •   Appropriation-Wide Support Through Washington Headquarters Service.
       A portion of the Defense Development Test and Evaluation (Appropriation
       0450) funds was used to finance appropriation-wide support. The funds were
       used to support administrative contracts, travel costs, and minor test and
       evaluation projects.

In addition, DOT&E maintained responsibilities over the two program elements funded
through Defense Operational Test and Evaluation (Appropriation 0460). Those
programs are:

   •   Operational Test and Evaluation. Operational Test and Evaluation supports
       DOT&E efforts to manage policies and procedures for all aspects of operational
       test and evaluation within DoD, with a particular focus on testing that supports
       major weapon system production decisions.

   •   Live Fire Test and Evaluation. The primary objective of Live Fire Test and
       Evaluation is to provide realistic survivability and lethality testing on platforms
       and weapons to assure that major systems perform as expected and that combat
       forces are protected.

Table 1, below, shows the program elements with funding under the authority of
DOT&E for FY 1999.

    Table 1. Program Elements with Funding Under the Authority of DOT&E
                                (in millions)

    Appropriation Number and                    Appropriation           Managed
    Program Element Names                         Amount               by DOT&E

 0450 - CTEIP                                      $131.7                 $131.7
 0450 - Foreign Comparative Testing                  32.7                    0.0
 0450 - Development Test and Evaluation              94.3                   52.0
 0460 - Operational Test and Evaluation              15.3                   15.3
 0460 - Live Fire Test and Evaluation                18.9                   18.9
  Total                                            $292.9                 $217.9

Objectives
The overall audit objective was to evaluate the process used to distribute the DOT&E
funds, and to evaluate whether the funds were used for the appropriate purpose.




                                            2
                    Management and Use of Director,
                    Operational Test and Evaluation Funds
                    We reviewed the accounting for $141.1 million or 64.8 percent of the
                    DOT&E funds distributed to various fund recipients. Fund recipients
                    used existing accounting guidelines and regulations to properly distribute
                    and account for the funds. As a result, the DOT&E has reasonable
                    assurance that procedures used to account for funds were in accordance
                    with administrative control policies and the funds were distributed to the
                    intended program.

Distribution of DOT&E Funds
We reviewed the accounting for about $141.1 million (64.8 percent) of the DOT&E
FY 1999 funds distributed to various fund recipients. We reviewed the methods for
transferring the funds from the appropriation level (0450 and 0460) to the research and
development projects at the test ranges. Each appropriation had its own business-
financial manager who was responsible for managing the funds, and both managers
used their own method for distributing and monitoring the funds. The method used for
Appropriation 0450 included three levels, and the method used for Appropriation 0460
used only two. The chart below shows the flow of funds from the DOT&E
appropriation level to the research and development projects at the ranges and test
facilities.

Appropriation 0450, Appropriation Level. The DoD Comptroller sent allotments to
the business-financial manager who was responsible for distributing the funds to the

                         Flow of DOT&E Funds to the Project Offices

                         Appropriaton 0450                                         Appropriation 0460

                           Appropriation Level                                          Appropriation Level

    Organization Level     Organization Level       Organization Level   R&D Projects     R&D Projects        R&D Projects

            R&D Projects      R&D Projects       R&D Projects




program elements within Appropriation 0450. Suballotments were sent to various test
and evaluation organizations. The program managers and the mid-level budget analysts
had the functional responsibility for distributing the funds to the projects and
monitoring financial performance. The business-financial manager monitored the
performance of the organizations through monthly reports prepared by the Defense
Finance and Accounting Service, which listed the obligation and disbursement amounts
of the organizations receiving suballotments. The business-financial manager relied on
the financial management regulations and guidance letters from management for
distributing Appropriation 0450 funds.


                                                                   3
Appropriation 0450, Organization Level. We reviewed the accounting procedures
used by seven of the nine organizations that received DOT&E funds. The organizations
primarily used the funds to support research and development projects at the military
installations. The program managers determined which projects received the funds.
The organizations normally used an accounting system used by a specific military
service, but because the Organization Level funded projects in all three Services, the
methods used to distribute the funds varied. The mid-level budget analysts at each
organization used a military interdepartmental purchase request (MIPR) to issue funds
to the projects at installations in a different Service. When requesting funds from
installations within the same Service, organizations used an equivalent intra-Service
funding document.

The organizations monitored the obligation and expense rates reported in the accounting
systems regardless of the method used to distribute the funds. The organizations also
relied on monthly reports prepared by personnel at the project level because the official
accounting records had time lags of up to 3 months. The reports adjusted the values
listed in accounting records by adding unrecorded obligations and expenses.
Additionally, most of the organizations conducted intense reviews with the project
managers on a biannual basis. At these meetings, the organizations reviewed the
technical and fiscal accomplishments of the projects.

The business-financial managers sent funds to Washington Headquarters Service (WHS)
to provide appropriation-wide support for the organizations and projects. The funds
were deposited in accounts controlled by the business-financial managers. The funds
were primarily used for administrative contracts, technical support, and travel
expenses. The program managers in Appropriation 0450 determined how their funds
were used, and the business-financial manager retained fiscal responsibility.

Appropriation 0450, Project Level. The projects conducted research and
development testing at military installations throughout the country. We reviewed the
accounting procedures used by projects at eight military installations. The accounting
procedures were largely dictated by the policies of the particular military installation
regardless of which organization provided the funds. After receiving the funding
documents from the organizations, the projects assigned a job order number to the
funds so that the budget analysts could match the work performed to the funding
document and use the installations’ internal accounting systems to monitor the funds.

Many installations had accounting databases that categorized how the projects obligated
and expensed their funds. The project managers and their budget analysts used these
databases and other accounting records to prepare monthly reports for the sponsoring
organizations. The reports highlighted the technical accomplishments of the project and
stated how their funds were obligated and expensed. The organizations made
management decisions based on these reports and an annual review.

Appropriation 0460, Appropriation Level. Appropriation 0460 consisted of two
program elements. The DoD Comptroller authorized the funds to the WHS, Budget
and Finance Office, before the funds were distributed to DOT&E. Unlike
Appropriation 0450, all 0460 funds were deposited with WHS and used WHS




                                            4
accounting services. The business-financial manager distributed funded projects using
MIPRs and also assigned some funds directly to contracts. The business-financial
manager used WHS monthly reports to monitor the funds. The business-financial
manager did not have written standard operating procedures for distributing
appropriation 0460 funds. For accounting support, there was reliance on WHS.

Appropriation 0460, Project Level. We did not review the accounting procedures
used to manage Appropriation 0460 funds at the project level.

Use of Funds
We used two different approaches to review the funds of both appropriations. For
Appropriation 0450, we focused on how the projects used the funds, and for
Appropriation 0460 we focused on how the funds were distributed at the appropriation
level. Funds were used for test and evaluation projects at various test ranges while
some funds were retained at the appropriation level to support contracts, travel, and
other items needed to support the appropriation.

Defense Development Test and Evaluation (Appropriation 0450).
Appropriation 0450 funds were distributed from the appropriation level through the
organization level to the project level. We used different steps to review each level.
At the appropriation level, we determined how the funds were distributed to the
organizations. At the organization level, we determined how the funds were distributed
for various projects. At the project level, we analyzed financial reports, contractual
information, project objectives, and other documents to determine whether the funds
were used to achieve authorized objectives.

The appropriation’s funds were primarily used for contracts and Government labor for
the Defense Development Test and Evaluation programs. Table 2 shows the dollar
amount of Appropriation 0450 funds that each DOT&E organization received and the
dollar amount reviewed.

             Table 2. FY 1999 Funds Reviewed (Appropriation 0450)
                                 (in millions)

                                              Suballotment           Amount
      Organization                              Amount              Reviewed

Army CTEIP                                       $49.3                $27.5
Navy CTEIP                                        38.5                 25.7
Air Force CTEIP                                   38.1                 26.1
JTCG/ME                                            7.7                  3.1
JTCG/AS                                            7.5                  2.2
Threat Systems Office                             10.6                  0.5
Precision Guided Weapons Countermeasures          11.1                 11.1
Ballistic Missile Defense Organization             0.5                  0.0
Washington Headquarters Service                   20.3                 12.7
 Total                                          $183.6               $108.9




                                          5
The organizations distributed funds to test ranges throughout the country. We reviewed
the use of funds at the following locations: Aberdeen Proving Ground, Maryland;
Patuxent River Naval Air Station, Maryland; China Lake Naval Air Warfare Center,
California; Edwards Air Force Base, California; Orlando, Florida; Eglin Air Force
Base, Florida; Redstone Arsenal, Alabama; White Sands Missile Range, New Mexico;
Holloman Air Force Base, New Mexico; Kirtland Air Force Base, New Mexico; and
the Washington, D.C., area.

Defense Operational Test and Evaluation (Appropriation 0460). The funds issued
under Appropriation 0460 were distributed from the appropriation level to the project
level. We conducted a partial review of Appropriation 0460 funds, which primarily
consisted of analyzing documentation that supported how the business-financial
manager distributed the funds. We did not review how the projects at the various test
ranges used the funds.

Unlike Appropriation 0450, approximately half of 0460 funds were used to support
activities in the Washington, D.C., area. The Institute for Defense Analysis received
$13.5 million of the Operational Test and Evaluation funds and $4.4 million of the Live
Fire Test and Evaluation funds. The Institute for Defense Analysis provides technical
and analytical support that assisted the DOT&E efforts to analyze and evaluate weapons
systems during the various phases of operational testing, to ensure the combat
effectiveness of the weapons and identify areas for improvement.

Of the $34.2 million available in FY 1999 for the Operational Test and Evaluation and
the Live Fire Test and Evaluation program elements, we reviewed documentation
supporting how the business-financial manager distributed $32.2 million. Table 3
shows the DOT&E FY 1999 funding authority for Appropriation 0460 and the dollar
amount reviewed.



             Table 3. FY 1999 Funds Reviewed (Appropriation 0460)
                                 (in millions)
                                               Appropriation         Amount
       Program Element                           Amount             Reviewed

  Operational Test and Evaluation                 $15.3               $14.9
  Live Fire Test and Evaluation                    18.9                17.3
   Total                                          $34.2               $32.2

Conclusion
Although the business-financial managers used different methods to distribute funds,
both appropriations had sufficient methods for monitoring funds. Appropriation 0450
organizations used monthly reports and the official accounting records to monitor
funds. The business-financial manager for Appropriation 0460 monitored the funds by
using the services provided by the WHS. FY 1999 funding for Director, Operational
Test and Evaluation, programs were primarily used to purchase government civilian


                                           6
labor and travel and to contract for services and materiel. Both Appropriations 0450
and 0460, funds were properly used to achieve the respective program objectives.

Management Comments
The Deputy Director, Resources and Ranges, Office of the Director, Operational Test
and Evaluation, suggested a minor change, which was incorporated in this final report.




                                           7
Appendix A. Audit Process

Scope and Methodology
Work Performed. We reviewed the use of FY1999 Appropriations 0450 and 0460
funds that were provided to the Director, Operational Test and Evaluation, as a result
of the June 7, 1999, merger. We reviewed the propriety of the program elements for
CTEIP, the Development Test and Evaluation program, the Operational Test and
Evaluation program, and the Live Fire Test and Evaluation that were program funded
by the Director, Operational Test and Evaluation. In addition, we reviewed the process
by which the funds were distributed from the Office of the Director for Operational
Test and Evaluation to the final user of the funds. We did not track the billing process
and the payment from the Defense Finance and Accounting Service.

Use of Computer-Processed Data. We did not rely on computer-processed data to
develop our audit conclusions.

Audit Type, Dates, and Standards. We performed this economy and efficiency audit
from January through May 2000, in accordance with auditing standards issued by the
Comptroller General of the United States, as implemented by the Inspector General,
DoD.

Contacts During the Audit. We visited or contacted individuals and organizations
within the DOD. Further details are available on request.

DoD-wide Corporate Level Government Performance and Results Act (GPRA)
Coverage. In response to the GPRA, the Secretary of Defense annually establishes
DoD-wide corporate level performance goals, subordinate performance goals, and
performance measures. This report pertains to achievement of the following goal,
subordinate goal, and performance measure.

       •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains that U.S.
           qualitative superiorty in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DOD-2).

       •   FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’ needs
           smarter and faster, with products and services that work better and cost less,
           by improving the efficiency of DoD acquisition processes. (01-DoD-2.4).

       •   FY2001 Performance Measure 2.4.3: Successful Completion of System
           Operational Test and Evaluation (OT&E) Events. (01-DoD-2.4.3).

General Accounting Office High-Risk Area. The General Accounting Office has
identified several high-risk areas in the DoD. This report provides coverage of the
Defense Financial Management high-risk area.



                                            8
Prior Coverage
During the last 5 years, there have been many reports regarding specific programs of
the Office of the Director of Operational Test and Evaluation; however, few reports
dealt with the process of operational testing and evaluation. The Inspector General,
DoD, has conducted reviews relevant to the subject matter of this report. Inspector
General, DoD, reports can be accessed over the Internet at http://www.dodig.osd.mil.
The following reports are of particular relevance to the subject matter of this report.

   Inspector General, DoD, Report No. 97-214, “Live-Fire Test and Evaluation of
   Major Defense Systems,” September 9, 1997.

   Inspector General, DoD, Report No. 96-107, “Operational Testing Performed on
   Weapons Systems,” May 6, 1996.

   Inspector General, DoD, Report No. 95-281, “Management and Capability of the
   Major Range and Test Facility Bases,” July 27, 1995.




                                           9
Appendix B. Funds Oversight
The Office of the DOT&E could obtain current funding information from the Service
end-user organizations with established computer information systems and that have
posted the data on their website. These computer information systems provide up-to-
date data on how funds are used and whether they are effectively obligated and
expended. For example, the Army White Sand Missile Range uses the “Customer Cost
and Performance Reporting System,” that was developed to provide an immediate,
electronic access to all financial information, including allocations, expenses,
programmatic funding documents, and billings. The system contains detailed estimates
and electronic invoices and billings of test-related resources. The system also provides
management with information for planning labor resources, financial data support for
the entire program life cycle, and consolidated access to all financial information. The
other Services and other Army organizations have similar systems capable of providing
up-to-date information through the use of office computers and the Internet




                                          10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform


                                          11
Office of The Secretary of Defense
Comments
                                     Final Report
                                      Reference




                                     Page 5
                                     Revised




                    13
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector General for
   Auditing, DoD, prepared this report.

     Thomas F. Gimble
     Frederick J. Lane
     Raymond A. Spencer
     David F. Vincent
     Michael E. Simpson
     Barbara A. Sauls
     Rudolf Noordhuizen
     Monica S. Rice
     Timothy M. Nelson
     Alquinton Wiggins
     David Williams
     Jenshel Marshall
